Memorandum from the Office of the Inspector General



May 31, 2005

Kim R. Patterson, WT 4B-K

REQUEST FOR MANAGEMENT DECISION – INSPECTION 2005-512I – TRAVEL
EXPENSE REIMBURSEMENT



Attached is the subject final report for your review and management decision. As discussed
with you on May 24, 2005, the subject report is being issued in presentation format. You are
responsible for determining the necessary actions to take in response to our findings.
Please advise us of your management decision within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Rick Underwood, Senior Auditor, at (423) 751-3108
or R. Darryl Bryant, Manager, Inspections, at (423) 751-4415. We appreciate the courtesy and
cooperation received from your staff during this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RCU:SDB
Attachment
cc (Attachment):
     Tom D. Kilgore, ET 12A-K
     Richard W. Moore, ET 4C-K
     Anda A. Ray, SP 6D-C
     Michael E. Rescoe, ET 12A-K
     Ellen Robinson, ET 12A-K
     Randy P. Trusley, WT 5C-K
     OIG File No. 2005-512I
Travel Expense Reimbursement

            2005-512I
           May 31, 2005
Agenda

     Findings Summary
     Background
     Objectives
     Scope and Methodology
     Findings and Recommendations




                                     2
Findings Summary

     We estimate the flat rate method cost TVA about $115,475 or
      5.8 percent more than the actual reimbursement method in the quarter
      reviewed.
     We identified the following weaknesses in the travel reimbursement
      process:
       – Twenty-two percent of the flat rate reimbursements exceeded the allowable
         reimbursement rates.
       – Additional costs due to payments to employees for direct billed hotel
         expenses.




                                                                                     3
Background

     The Chief Financial Officer (CFO) organization requested that we
      conduct an analysis to determine the cost effectiveness of the
      actual expense reimbursement and Chief Operating Officer (COO)
      flat rate programs.
     TVA currently has three methods of travel reimbursement:
       – Reimbursements based on actual expenses incurred.
       – Reimbursements based on flat rates established by the COO. (This
         program began in January 1999, with the intent of reducing employees’
         administrative workload and additional administrative costs associated
         with travel.)
       – Reimbursements based on flat rates arrived at during union
         negotiations.
     Travel Allowance and Reimbursement Accounting Procedure 15
      states that, “When temporary duty travel periods are less than
      24 hours and overnight lodging is not required, there is normally no
      reimbursement for meals and incidental expenses.”


                               SENSITIVE INFORMATION
                                                                                  4
Background (cont’d)

     The COO flat rate method covers lodging (including lodging tax if not
      direct billed), meals, and incidentals (tips and fees to food servers or
      hotel personnel).
     All other allowable expenditures not covered by the flat rate may be
      claimed under the “Other Expenses” category.
     The program allows partial flat rate reimbursements if a travel
      assignment is more than 12 hours, but overnight travel is not
      required.
     Employees can also choose to be reimbursed based on actual
      expenses.




                                                                                 5
Objectives

     Our objective was to compare the cost of the COO flat rate
      reimbursement method versus the actual reimbursement method.
     Additionally, we evaluated both methods to identify any weaknesses
      that would allow abuse of the programs.




                                                                           6
Scope and Methodology

     The scope of our work included travel reimbursements for
      subsistence* expenses incurred during fiscal year (FY) 2004 and the
      first quarter of FY 2005 within the TVA region. Reimbursements
      made to personnel who are reimbursed based on negotiated rates
      were excluded. This resulted in a population of 198,473
      reimbursements totaling $13,477,051.
     Interviewed key personnel in the CFO organization responsible for
      Expense Reimbursement System (ERS) in order to gain an
      understanding of the system, layout of the data, and to obtain
      information on system processing controls.
     Interviewed key personnel in the COO organization to ensure that
      our data analysis methodology was sound.
     Collected Data – We obtained the data used in our inspection from
      the ERS data files and the GSA approved rates and COO flat rates
      from those organizations’ respective web sites.

      *Subsistence is defined as lodging, lodging taxes, meals and incidental expenses
       related to subsistence.


                                                                                         7
Scope and Methodology (cont’d)

     Analyzed Data – The data obtained from ERS was analyzed in the
      following manner.
       – For our actual to flat rate methods comparative analysis we selected
         second quarter FY 2004 travel reimbursements for TVA region travel.
       – This resulted in a population of 43,712 reimbursements totaling
         $3 million using both the flat rate and actual expense reimbursement
         methods.

      This inspection was conducted in accordance with the quality
      standards for inspections.




                                                                                8
Finding 1 - Flat Rate vs. Actual
Expense Reimbursement Program

    COMPARISON OF REIMBURSEMENT METHODS
    TVA would have saved approximately $115,475 in second quarter
    FY 2004 if expenditures reimbursed under the flat fee method had
    been reimbursed under the actual method.

       – Flat fee full day* reimbursements cost an average of $1.21 more per full
         day.
       – Flat rate partial day** reimbursements cost an average of $10.45 more per
         partial day.



    * A full day was identified by lodging costs under the actual method or a flat fee paid for one travel day that
      was equal or greater than the COO full day flat rate for the city listed.

    **A partial day was identified as one with no lodging expense under the actual method or a flat fee near or
     less than the COO partial day rate for the listed city.



                                                                                                                      9
Finding 1 - Flat Rate vs. Actual
Expense Reimbursement Program
                    Daily Average Costs Under Flat Fee and Actual Reimbursement Methods for Full Days in
                                                        Top 20 Cities


    120.00

    110.00

    100.00

     90.00

     80.00

     70.00

     60.00

     50.00

     40.00

     30.00

     20.00

     10.00

      0.00
             KN          ST        CH       ME        HA       AT      MU       HU        OA       NA        KIN      O th     DR          NE       CL         BE      LEB      WA       CL      MU
                O   XV      EV        AT       MP       RT        HE      SC       NT        KR       SH         GS       er T       AK       W        IN T       NT       AN      TT S    AR       RP
                      I LL     EN        TA      H IS      SV       NS       LE       SV        IDG      VIL       TO         Nc        ES      JO          ON      ON        ON              KS      HY
                          E       SO       NO                 ILL               S       I LLE       E       LE       N           ity      BO       HN                                   BA      VIL
                                     N       OG                  E               HL                                                          RO       SN                                  RD       LE
                                                A                                  S                                                                     V  L                                M


                                                                   Full Day Average Under Actual          Full Day Average Under Flat Fee




                                                                                                                                                                                                           10
Finding 1 - Flat Rate vs. Actual
Expense Reimbursement Program
            Daily Average Costs Under Flat Fee and Actual Reimbursement Methods for Partial Days for Top
                                                      20 Cities

    40.00


    35.00


    30.00


    25.00


    20.00


    15.00


    10.00


     5.00


     0.00
            KN          ST       CH       ME     HA    AT     MU    HU      OA       N       KIN    Ot      DR         NE      CL         BE   LE                     MU
               O                                          HE                    K R AS H               he                          IN            B A WA T   CL
                   XV      EV
                              EN
                                    AT
                                       TA
                                             MP    R
                                               HIS TSV      NS SCL     NT
                                                                          SV       ID     VIL
                                                                                                 GS
                                                                                                   TO    rT       AK
                                                                                                                     ES
                                                                                                                         W
                                                                                                                            JO        T O NTO       NO   TS     AR
                                                                                                                                                                   KS
                                                                                                                                                                          RP
                                                                                                                                                                            HY
                     I LL        S       N             I           ES                 G      L             N                   H         N    N        N    B        V
                         E        ON       OO           LLE          HL     ILL         E     E      N       c it      BO        N                            A        IL
                                                                               E                                 y        RO       S NV                        R         LE
                                              GA                        S                                                                                        DM
                                                                                                                                        L

                                                      Partial Day Average Under Actual        Partial Day Average Under Flat Fee




                                                                                                                                                                                 11
Finding 1 - Flat Rate vs. Actual
Expense Reimbursement Program

    Recommendation
    The TVA Controller, in consultation with the COO, should consider:
     – Elimination of the flat rate program; and/or
     – Lowering the rates in those cities where average full day and partial day
       rates are higher than the average amounts reimbursed under the actual
       expense method.




                                                                                   12
Finding 2 - Reimbursements Under Flat
Rate in Excess of COO Full Day Rate
    26,855 (22%) of the 121,933 flat rate reimbursements paid to
    employees plus any direct billed lodging exceeded COO allowable
    reimbursement rates by a total of $205,976 during FY 2004 and first
    quarter FY 2005.
    Specifics of the excess payments have been supplied to management
    for consideration and follow-up.


                                                               78%




                                  22%




                       Reimbursements Less than or Equal to the COO Full Flat Rate
                       Reimbursements in Excess of COO Full Flat Rate

                               SENSITIVE INFORMATION
                                                                                     13
Finding 2 - Reimbursements Under Flat
Rate in Excess of COO Full Day Rate

    Recommendation

    The TVA Controller, in consultation with the COO, should implement
    system edits to prevent employees from requesting more than the
    maximum daily amount in subsistence reimbursement for in-region
    travel under the flat rate program.




                                                                         14
Finding 3 – Direct Bill Lodging

     Duplicate Reimbursements for Direct Bill Lodging During
     FY 2004 and First Quarter 2005
     Identified 663 (1.13%) instances under both reimbursement methods where
     employees were reimbursed for lodging in addition to the hotel being paid
     directly by TVA, resulting in $36,197 in excess cost to TVA.


     Direct Bill Lodging Without Corresponding Travel
     Reimbursement
     Identified 122 transactions for direct billed lodging without a corresponding
     travel expense reimbursement in the ERS system. These items totaled
     $6,532.


     ERS Travel Voucher Entry Screens
     There are two areas where the ERS screens for entering “Voucher Details
     by Day” may be confusing to some people.


                                                                                     15
Finding 3 – Direct Bill Lodging

     Recommendations
     The TVA Controller, in consultation with the COO, should improve
     monitoring by providing exception reports to responsible managers
     listing:
      – Instances where employees are reimbursed for lodging in addition to a
        hotel being paid directly by TVA; and
      – Direct billed lodging with no corresponding travel voucher.


     We recommend consideration be given to modifying the “Enter
     Voucher Details by Day” screen to clarify the purpose of the GSA per
     diem rates that appear on the screen, and to allow employees to
     indicate that direct billed lodging charges were incurred.

     The CFO organization should also follow-up on items identified in this
     finding and take any necessary corrective actions.


                                                                                16
